                  Department of Veterans Affairs
                  Office of Inspector General



                    Office of Healthcare Inspections

Report No. 14-00991-255




             Healthcare Inspection 


          Deficiencies in the 

     Caregiver Support Program 

 Ralph H. Johnson VA Medical Center 

     Charleston, South Carolina 





August 21, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations that the Caregiver Support Program (CSP) at the
Ralph H. Johnson VA Medical Center (facility), Charleston, SC, does not operate in
accordance with Public Law or VA guidelines.

We substantiated the allegation that an interdisciplinary team had not appropriately
assessed many veterans during the application process. Facility leadership did not
designate an interdisciplinary CSP team or develop a comprehensive assessment
process until February 2014.

We substantiated the allegation that more than 100 applications were awaiting initial
CSP screening, and many were beyond the 45-day requirement. We found that the
facility had placed a hold on all new applications while they addressed the care and
monitoring of active participants in the program. As of January 27, 2014, more than
200 patients were awaiting CSP eligibility screening, with 164 of them waiting longer
than 45 days. However, as of February 14, the facility had conducted a review of all
applications and processed them appropriately.

We substantiated the allegation that CSP staff did not conduct 90-day and annual
follow-up visits. We reviewed 60 electronic health records of currently enrolled patients
and found that 57 percent had not received the initial in-home visit within 10 business
days of their caregiver completing the education-training course, 75 percent had not
received the 90-day in-home monitoring visits, and 89 percent had not received the
annual in-home assessment. Furthermore, none of the seven patients who were due
for their second annual assessment had been reassessed.

We confirmed that the Chief of Social Work Service and facility leadership did not
assure sufficient staffing in a timely manner to conduct CSP follow-up visits. While
facility managers hired a second Caregiver Support Coordinator (CSC) to assist with
workload demands, this staffing was not sufficient to address the existing volume of
home visits. The facility was in the process of hiring two nurses to conduct CSP in-
home monitoring and assessments. We did not substantiate the allegation that a CSC
did not possess the knowledge, skills, and abilities to perform the job.

We substantiated the allegation that caregivers received “hundreds of thousands of
stipend dollars” without confirmation that the patients and caregivers met program
requirements. We found that caregivers were paid even though the facility had not
documented required annual reassessments.

We recommended that the Facility Director ensure that the CSP’s Clinical Eligibility
Committee meets regularly, CSP applications are processed timely, currently enrolled
patients are monitored and assessed as required, adequate staffing is available to meet
the minimum in-home monitoring and caregiver assessment requirements, and
reassessments supporting continued eligibility and stipend payments are documented,
as required.


VA Office of Inspector General                                                                    i
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B
pages 8–12 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                              Healthcare Inspection 





VA Office of Inspector General                                                                    ii
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC



                                         Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an evaluation in response to allegations that the Caregiver Support Program (CSP) at
the Ralph H. Johnson VA Medical Center (facility), Charleston, SC, does not operate in
accordance with Public Law (PL) or VA guidelines.

                                      Background 

The facility is a tertiary care medical center that provides a broad range of inpatient and
outpatient health care services. It is part of Veterans Integrated Services Network
(VISN) 7 and serves veterans throughout South Carolina and parts of Georgia. The
facility has 79 hospital beds, 20 community living center beds, and 18 mental health
(MH) beds and is the parent facility for community based outpatient clinics in Beaufort,
Goose Creek, Myrtle Beach, and Trident, SC, and Hinesville and Savannah, GA.

PL 111-163, Caregivers and Veterans Omnibus Health Services Act of 2010, authorized
the CSP and was signed into law on May 5, 2010. The purpose of the CSP is to
provide medical, MH, travel, training, and financial benefits to caregivers of eligible
veterans and service members injured in the line of duty on or after
September 11, 2001. The Veterans Health Administration (VHA) CSP guidebook,
issued on April 20, 2012, and updated on June 11, 2013, prescribes requirements for
eligibility, screening, caregiver education, and clinical follow-up. Although the CSP
guidebook was in draft form at the time of our inspection, VHA considers it mandatory
guidance.

In May 2011, the facility began enrolling patients and caregivers into the CSP. At that
time, the facility had one Caregiver Support Coordinator (CSC-1) overseeing the
program. CSC-1 was responsible for screening applications for administrative eligibility,
coordinating with primary care and/or MH providers to determine clinical eligibility,
referring and monitoring caregivers’ completion of the training and education course,
arranging with VA resources to conduct initial in-home assessments, and providing
ongoing in-home monitoring every 90 days. A second CSC (CSC-2) was hired
part-time in November 2012 and became full-time in April 2013.

Since initiation, the facility’s CSP has grown steadily. As of our site visit, 191 caregivers
were enrolled in the program and 204 applications were pending review.

In November 2013, the OIG Hotline Division received a complaint alleging clinical and
administrative deficiencies in the CSP. Specifically, the complainant alleged that:

   	 An interdisciplinary team had not appropriately assessed veterans, as required.
   	 More than 100 applications were awaiting initial CSP screening, many of them
      beyond the 45-day requirement.




VA Office of Inspector General                                                                   1
                   Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


      	 CSP staff had not conducted 90-day and annual home visit evaluations, as
         required.
      	 The Chief of Social Work Service (SWS) did not provide dedicated staff to
         conduct CSP follow-up.
      	 A CSC, who is a registered nurse (RN), does not possess the knowledge, skills,
         and abilities to perform the job.
      	 VA is paying “hundreds of thousands” of stipend dollars to caregivers without
         confirmation [via follow-up visits] that the patients and caregivers meet program
         requirements.

                                 Scope and Methodology 

We conducted a telephone interview with VA Central Office CSP officials in
December 2013 and with the complainant in January 2014. We conducted our site visit
February 18–19, 2014. We interviewed the Director, Chief of Staff, Chief of SWS,
Associate Director for Patient Care Services, Associate Deputy of Nursing and Patient
Care Services, and Primary Care Director, both CSCs, the current and former CSP
supervisors, an RN case manager, and the CSP administrative support assistant. In
addition, we interviewed staff at the Health Administration Center (HAC) located in
Denver, CO.1 We also reviewed PL 111-163; VHA’s Plan for Implementation of
PL 111-163; the Caregiver Support Program Guidebook (draft, issued April 20, 2012,
and updated June 11, 2013); and materials on VHA’s CSP website.

We reviewed the electronic health records (EHRs) of 60 randomized patients enrolled in
the CSP program as well as those awaiting screening. We reviewed documents related
to patient and caregiver training, CSC functional statements, Clinical Eligibility
Assessment and scoring information, Issue Briefs, and the status report and process
improvement plan from the facility. We also evaluated stipend payments to specified
caregivers from July 2011 through January 2014.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency




1
    The HAC is responsible for the disbursement of caregiver stipend payments.


VA Office of Inspector General                                                                       2
                   Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC



                                      Inspection Results 

Issue 1: CSP Assessments and Monitoring

Initial Assessments

We substantiated that an interdisciplinary team had not appropriately assessed
veterans during the application process.

PL 111-163 requires that an independent provider, in collaboration with the
interdisciplinary care team, complete a Clinical Eligibility Assessment to determine the
veteran’s eligibility to participate in the program and the amount and level of stipend
payment the primary family caregiver will receive.

From May 2011 to October 2013, the facility did not have an interdisciplinary care team
designated to evaluate CSP applicants. During this time, the CSC would collaborate
with the primary care and/or MH provider to determine clinical eligibility and estimate the
stipend level based on the clinical assessment. In response to a facility CSP internal
audit conducted in August 2013, an interdisciplinary team met once in October to review
the clinical eligibility status of active participants. During that meeting, the team
determined that they could not make clinical eligibility decisions based solely on limited
chart reviews. The interdisciplinary team relayed this information to the Chief of SWS,
and the team disbanded.

Initial Screening

We substantiated that more than 100 applications were awaiting initial CSP screening
and that many of them exceeded the 45-day processing requirement.2

We confirmed that as of January 27, 2014, more than 200 patients were awaiting CSP
eligibility screening, with 164 of them waiting longer than 45 days. We found limited
documentation that CSCs were communicating with the patients or caregivers awaiting
screening during this period. The facility told us that in October 2013, the new CSP
applications were placed on hold pending review of the eligibility of, and service delivery
to, the current CSP patients and caregivers. An Issue Brief tracking the status showed
that as of February 14, 2014, facility staff had reviewed the EHRs of all veterans
awaiting screening and had taken the next step in the process to refer caregivers of
clinically eligible veterans to the training and education program. Veterans whose
eligibility was not clear based on the EHR review were referred for further clinical
evaluation.

Ongoing Monitoring

We substantiated that CSP staff had not conducted 90-day and annual follow-up visits,
as required.

2
    VHA, Caregiver Support Program Guidebook (Draft), issued April 20, 2012; updated June 11, 2013.


VA Office of Inspector General                                                                        3
                Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


The CSP guidebook requires that: (1) VA personnel complete the initial in-home
assessment within 10 business days after official notification that the caregiver
completed training; (2) applications be processed and approved or disapproved within
45 days; (3) monitoring occurs every 90 days through an in-home assessment to
determine the well-being of both the veteran and the caregiver; and (4) an annual
in-home full reassessment of the primary caregiver’s competence be conducted as a
stipulation for continued stipend payments and other benefits.

Our EHR review of 60 active patients (and their caregivers) from
August 8, 2011, through September 20, 2013, found that the facility did not comply with
requirements, as follows:

    	 57 percent of initial in-home assessments had not been completed
    	 50 percent of applications were not processed within 45 days; it took an average
       of 54 days for application approval with a range of 15–191 days
    	 25 percent of the households were visited but not every 90 days as required
    	 75 percent of the households were not monitored following their initial in-home
       assessment
    	 89 percent of the 35 households due for their first annual in-home reassessment
       were not reassessed
    	 None of the seven households due for their second annual in-home
       reassessment were reassessed

The August 2013 CSP internal audit identified similar deficiencies. At the time of our
visit, CSP staff had revised the screening process and instituted an interdisciplinary
team for application review, which met for the first time in February 2014.

Issue 2: Staffing

Dedicated Staff

We confirmed that the Chief of SWS and facility leadership did not assure sufficient
staffing in a timely manner to conduct CSP follow-up visits. However, the guidance on
CSP staffing is vague, and it does not appear that the facility was required to provide
dedicated staffing for CSP follow-up activities.

VHA guidance suggests that staff from VA programs such as Home Based Primary
Care, community health programs, Spinal Cord Injury and Disorders Home Care,
MH Intensive Case Management, or a contract Home Health Care Agency provide
in-home monitoring.3 This suggestion does not take into account whether these
programs have the ability to include additional patients in their caseloads, nor does it
require them to do so. CSC-1 conducted some home visits and developed verbal,

3
 VHA, Plan for Implementation PL 111-163 “Caregivers and Veterans Omnibus Health Services Act of 2010,”
Title 1 Caregiver Support, Section 101, Assistance and Support Services for Caregivers.


VA Office of Inspector General                                                                            4
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


informal agreements with Home Based Primary Care and a MH nurse practitioner to
assist with the home assessments as time and resources permitted. However, CSC-1
was not empowered to mandate staff to assist with the home visits.

While facility managers hired CSC-2 (who started in November 2012) to assist with
workload demands, it would have been difficult for CSCs 1 and 2 to address the volume
of applications and the existing backlog of home visits without other clinical staff to
support the effort.        Facility leaders learned of the growing backlog in
October 2013, but did not promptly take actions to assure the necessary human
resources were available to meet 90-day and annual home visit requirements. At the
time of our onsite inspection, CSP managers were interviewing applicants for two full-
time RN positions to help address the backlog of 90-day in-home monitoring and annual
reassessments.

Position Competence

We did not substantiate that CSC-1, who is an RN, did not possess the knowledge,
skills, and abilities to perform the job. The complainant did not offer specific examples
to support the allegation.

The CSP guidebook states that the CSC may be an advanced practice social worker,
psychologist, or RN whose primary responsibility is local administration of the CSP.
The CSP guidebook also states the expectation that CSCs participate in scheduled
national calls on a regular basis.

As an RN, CSC-1 met qualification standards for the position. CSC-1 also attended
multiple VISN and national training programs related to the implementation of the CSP
and participated on national calls as required. We found no documentary evidence, nor
did we hear testimonial evidence, that CSC-1 failed to adequately perform in the role.

Issue 3: Stipend Payments

We substantiated the allegation that caregivers received stipends without confirmation
via follow-up visits that the patients and caregivers met program requirements. The
purpose of the in-home assessment is to evaluate whether the patient is still in need of
the care and whether caregivers are still able and competent to deliver the care.
Caregiver competence to deliver the needed care appropriately and consistently is a
key component in optimizing a veteran’s health and functional status in the community.
PL 111-163 stipulates that, at a minimum, VHA is required to initially evaluate caregiver
competence, followed by annual competency reassessments, in order for caregivers to
receive stipend payments and other benefits. VHA’s HAC disburses stipend payments
directly to caregivers regardless of whether the necessary 90-day and annual home
visits have occurred.

Between July 2011 and January 2014, CSP 191 caregivers collectively received
2,927 stipend payments totaling approximately $5.4 million. Of those payments,
675 (23 percent), totaling nearly $1.2 million, were made to caregivers; although, the



VA Office of Inspector General                                                                   5
                 Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


facility had no documentation to support that annual reassessments occurred as of
March 15, 2014.4

                                           Conclusions 

We substantiated the allegation that an interdisciplinary team has not appropriately
assessed veterans during the application process. The facility had not designated an
interdisciplinary CSP team or developed a comprehensive assessment process until
February 2014.

We substantiated the allegation that more than 100 applications were awaiting initial
CSP screening, and many were beyond the 45-day requirement. We found that the
facility had placed a hold on all new applications while they addressed the care and
monitoring of active participants in the program. As of January 27, 2014, more than
200 patients were awaiting CSP eligibility screening with 164 of them waiting longer
than 45 days. However, as of February 14, the facility had conducted a review of all
applications and referred the cases as appropriate.

We substantiated the allegation that CSP staff had not conducted 90-day and annual
follow-up visits. We found that 57 percent of the cases we reviewed had not received
the initial in-home visit within 10 business days of completing the caregiver education-
training course; 75 percent had not received 90-day in-home monitoring visits;
89 percent did not have a documented annual in-home assessment; and none of the
seven patients who were due for their second annual assessment received it.

We confirmed that the Chief of SWS and facility leadership did not assure sufficient
staffing in a timely manner to conduct CSP follow-up visits. While facility managers
hired a second CSC to assist with workload demands, this staffing was not sufficient to
address the existing volume of home visits. The facility is in the process of hiring two
nurses to conduct CSP in-home monitoring and assessments.

We did not substantiate the allegation that CSC-1, who is an RN, did not possess the
knowledge, skills, and abilities to perform the job.

We substantiated the allegation that caregivers received “hundreds of thousands of
stipend dollars” without confirmation that the patients and caregivers met program
requirements. We found that caregivers were paid even though the facility had not
documented required annual reassessments.

                                     Recommendations 

1. 	 We recommended that the Facility Director ensure that the Caregiver Support
     Program’s Clinical Eligibility Committee meets regularly to review and discuss the
     clinical eligibility of current and future participants in the program.

4
  We used a cutoff date of March 15, 2014, for reviewing payment received and completion of the annual
reassessment.


VA Office of Inspector General                                                                           6
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


2. 	 We recommended that the Facility Director ensure that Caregiver Support Program
     applications are processed timely.

3. 	 We recommended that the Facility Director continue efforts to ensure currently
     enrolled patients are monitored and assessed as required.

4. 	 We recommended that the Facility Director ensure that adequate staffing is available
     to meet the minimum in-home monitoring and caregiver assessment requirements.

5. 	 We recommended that the Facility Director ensure that reassessments supporting
     continued eligibility and stipend payments are documented, as required.




VA Office of Inspector General                                                                   7
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC
                                                                                       Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                              Memorandum

     Date:     August 4, 2014

    From:      Director, VA Southeast Network (10N7)

  Subject:      Draft Report—Healthcare Inspection - Deficiencies in the
                Caregiver Support Program, Ralph H. Johnson VA Medical Center,
                Charleston, South Carolina

        To:     Director, Atlanta Regional Office of Healthcare Inspections (54AT)
                Director, Management Review Service (VHA 10AR MRS OIG Hotline)


         1. Thank you for the opportunity to respond to your findings and
            recommendations contained in the OIG draft report noted above.

         2. I concur with all the recommendations identified as well as the action
            plans contained within this document.

         3. Should you have questions or require additional information, please
            contact Judy Finley at (678)924-5700.




VA Office of Inspector General                                                                   8
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC
                                                                                       Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                    Memorandum


     Date:     August 1, 2014

     From:     Facility Director (534/00)

  Subject:     Draft Report—Healthcare Inspection – Deficiencies in the
               Caregiver Support Program, Ralph H. Johnson VA Medical Center,
               Charleston, South Carolina

       To:     Director, VA Southeast Network (10N7)


         1. 	 I have reviewed the draft report of the Inspector General’s Healthcare
              Inspection of the Ralph H. Johnson VA Medical Center. There were five
              (5) recommendations.

         2. 	 I concurred with all of the recommendations. One of the
              recommendations is completed and will be sustained. Actions are
              currently in process to resolve the remaining recommendations.

         3. 	 I appreciate the opportunity for this review as a continuing process to
              improve the care to our veterans.




VA Office of Inspector General                                                                   9
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure that the
Caregiver Support Program’s Clinical Eligibility Committee meets regularly to review
and discuss the clinical eligibility of current and future participants in the program.

Concur

Target date for completion: Completed and ongoing

Facility response: The Caregiver Support Clinical Eligibility Committee has met
20 times since February 10, 2014, with the majority of meetings (12) held in February
and March to expedite processing the backlog. The committee is meeting a minimum of
monthly with documented minutes.

Recommendation 2. We recommended that the Facility Director ensure that Caregiver
Support Program applications are processed timely.

Concur

Target date for completion: November 1, 2014

Facility response: Of the applications reviewed by the OIG, 95 percent have been
processed. The initial review for the remaining 5 percent has been completed and
applications are pending determination of clinical eligibility. Due to the large number of
older and new applications being processed, completion within 45 days has not been
consistently occurring. Clinical leadership has identified an additional provider to assist
full time to expedite the remaining clinical evaluations. The Caregiver Support Program
Manager is working with Quality Management to develop a tracking mechanism to track
and measure real-time progress as new applications are received.

Recommendation 3. We recommended that the Facility Director continue efforts to
ensure currently enrolled patients are monitored and assessed as required.

Concur

Target date for completion: November 1, 2014

Facility response: Currently, 89.5 percent of enrolled Veterans have completed the
required 90-day and/or annual evaluation. Evaluation visits for the remaining Veterans
have been scheduled. Leadership approved the request for recruitment of 2 registered
nurses RNs) on January 9, 2014, to bring the FTEE from 2 to 4. These new RNs
entered on duty May 18, 2014, to support in-home monitoring and caregiver


VA Office of Inspector General                                                                  10
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


assessments. The program did suffer another staff member loss recently and
recruitment to fill the vacancy has already begun. Once the vacancy is filled, it is
expected that the 4 staff members will be able to sustain the compliance for timeliness
of monitoring and assessments to > 95 percent.

Recommendation 4. We recommended that the Facility Director ensure that adequate
staffing is available to meet the minimum in-home monitoring and caregiver assessment
requirements.

Concur

Target date for completion: November 1, 2014

Facility response: Leadership approved the request for recruitment of 2 RNs on
January 9, 2014, to bring the FTEE from 2 to 4. These new RNs entered on duty
May 18, 2014, to support in-home monitoring and caregiver assessments. The program
did suffer another staff member loss recently and recruitment to fill the vacancy has
already begun. Once the vacancy is filled, it is expected that the 4 staff members will
be able to manage the current workload for assessments and reassessments.

Recommendation 5.      We recommended that the Facility Director ensure that
reassessments supporting continued eligibility and stipend payments are documented,
as required.

Concur

Target date for completion: December 1, 2014

Facility response: As reassessments are completed, cases are documented in the
Clinical Eligibility Committee and the Veteran’s electronic medical record. The
Committee determines the appropriate Tier level of participation; however, the Health
Eligibility Center (HEC) determines the stipend.

Identified through detailed reassessment and review by the Clinical Eligibility
Committee, Charleston currently has 148 Veterans enrolled and receiving stipends that
no longer meet the eligibility criteria for caregiver services. As the Program is a
therapeutic modality versus a benefit, Veterans are required to meet specific clinical
criteria. The goal of the program is to assist Veterans until those support needs are no
longer required. It is not intended as a long term support. These 148 Veterans are now
eligible for graduation from the Caregiver Support Program, and the process of
disenrolling them is beginning. Education on other supportive activities and community
services will be provided to these Veterans and caregivers to assist them with their
transition and continued improvement in their physical and mental health.

It is anticipated that disenrollment from the program will cause an increase volume in
communications and requests for appeals which could impact timeliness of processing
new applications. To manage the volume, the timing of Veteran notification will be



VA Office of Inspector General                                                                  11
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC


structured accordingly and include both verbal and written notification and information
regarding the appeal process.




VA Office of Inspector General                                                                  12
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC
                                                                                       Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Joanne Wasko, LCSW, Team Leader
                         Victoria Coates, LICSW, MBA
                         Matt Frazier, MPH, MBA
                         Michael Shepherd, MD
                         Toni Woodard, BS




VA Office of Inspector General                                                                  13
               Deficiencies in the Caregiver Support Program, Ralph H. Johnson VAMC, Charleston, SC
                                                                                       Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Ralph H. Johnson VA Medical Center (534/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Lindsey Graham, Johnny Isakson, Tim Scott
U.S. House of Representatives: John Barrow, Jeff Duncan, Jack Kingston,
 Mark Sanford, Joe Wilson



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  14
